CERTIFICATE OF SERVICE
No.
IN THE

Supreme Court of the United States

NANETTE BLANCHARD-DAIGLE,
Representative of the estate of Lyle Blanchard,

Petitioner,

v.
SHANE GEERS; JIM HATFIELD; BELL COUNTY, TEXAS,
Respondents.

I, M. Lucia Blacksher Ranier, counsel of record for Petitioner, and a member
of the Bar of this Court, hereby certify that on the 26th day of August, 2020, an
electronic copy of Plaintiff-Petitioner’s Petition for a Writ of Certiorari in the above
referenced case was served by electronic mail upon counsel for Respondents, Joe
Rivera, John T. Hawkins, Roy Lee Barrett, and Seth Byron Dennis in accordance
with this Court’s order of April 15, 2020.
An electronic version of the Petition for a Writ of Certiorari was transmitted
to counsel for Respondents at email addresses:
seth.dennis@oag.texas.gov; jill.couey@oag.texas.gov; irma.trejo@oag.texas.gov;
hawkins@namanhowell.com; pcooper@namanhowell.com;
jrivera@namanhowell.com; jpettet@namanhowell.com; rbarrett@namanhowell.com.

I further certify that all parties required to be served have been served.

/s M. Lucia Blacksher Ranier
M. LUCIA BLACKSHER RANIER
Attorney for Plaintiff-Petitioner Nanette
Blanchard-Daigle, Representative of the
estate of Lyle Blanchard

2

